  Department of Health and Human Services
                     OFFICE OF
                INSPECTOR GENERAL




DURABLE MEDICAL EQUIPMENT CLAIMS
   PAID BY NORIDIAN HEALTHCARE
 SOLUTIONS, LLC, DID NOT ALWAYS
  MEET THE REQUIREMENTS OF THE
LOCAL COVERAGE DETERMINATION FOR
      LOWER LIMB PROSTHESES

    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov.




                                                     Patrick J. Cogley
                                                 Regional Inspector General

                                                         August 2013
                                                        A-07-12-05035
                        Office of Inspector General
                                        https://oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
             at https://oig.hhs.gov/

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

  Noridian Healthcare Solutions, LLC, paid approximately $97,000 for lower limb
  prosthetics claims that did not meet Medicare coverage requirements for the period
  January 1, 2010, through December 31, 2011.

WHY WE DID THIS REVIEW

Previous Office of Inspector General (OIG) reviews found that Durable Medical Equipment
(DME) Medicare Administrative Contractors (MACs) did not ensure that lower limb prosthetic
claims met the coverage requirements in local coverage determinations (LCDs). LCDs are
decisions by DME MACs on whether to cover a particular service in accordance with
section 1862(a)(1)(A) of the Social Security Act (the Act) and are published to provide guidance
to the public and the medical community. In response to one of OIG’s reviews, on March 5,
2012, the Centers for Medicare & Medicaid Services (CMS) issued a Technical Direction Letter
(TDL) directing the DME MACs to develop claim-processing edits for all requirements in
LCDs for lower limb prostheses. Noridian Healthcare Solutions, LLC (Noridian), is one of the
DME MACs. This review is part of a series of reviews to determine the compliance of DME
MACs with LCD requirements for lower limb prostheses.

The objective of this review was to determine whether Noridian processed and paid claims for
lower limb prostheses according to LCD requirements for the period January 1, 2010, through
December 31, 2011.

BACKGROUND

Section 1862(a)(1)(A) of the Act requires that, to be paid by Medicare, a service or an item must
be reasonable and necessary for the diagnosis or treatment of illness or injury or improve the
functioning of a malformed body member. Medicare Part B provides for the coverage of durable
medical equipment, prosthetics, orthotics, and supplies (DMEPOS).

A lower limb prosthesis is an artificial replacement for any or all parts of a leg; it provides an
individual who has an amputated limb with the ability to perform functional tasks, particularly
walking, that may not be possible without the device. For a lower limb prosthesis to be covered
by Medicare, the patient is expected to reach or maintain a defined functional level and be
motivated to ambulate.

When submitting claims to DME MACs, suppliers use Healthcare Common Procedure Coding
System (HCPCS) codes. Each claim can have multiple lines of service, each of which represents
a different component (e.g., foot, ankle) of the lower limb prosthesis provided by the supplier.
Lines of service are billed using HCPCS codes, many of which require a modifier code to
indicate such things as left or right limb and functional level. Noridian published LCD L11453
for lower limb prostheses. The LCD contained coverage requirements, such as the functional
levels required for certain components, socket inserts that are allowed only in certain quantities,
unallowable combinations of HCPCS codes, and the DMEPOS suppliers’ documentation
requirements. Medicare policy instructs DME MACs to apply the LCD coverage requirements


Noridian Healthcare Solutions Paid Unallowable Lower Limb Prosthetics Claims (A-07-12-05035)         i
to claims on either a prepayment or postpayment basis. Noridian uses claim-processing edits to
apply LCD requirements for lower limb prostheses on a prepayment basis. Prepayment edits are
programming logic within a claim-processing system that are designed to evaluate claims and
prevent payment for errors such as noncovered, incorrectly coded, or inappropriately billed lines
of service.

WHAT WE FOUND

Noridian paid $96,509 for 48 lines of service for lower limb prostheses from January 1, 2010,
through December 31, 2011, that did not meet LCD requirements, consisting of:

    •   $89,762 for 41 lines of service that had missing or incorrect functional level modifiers
        and

    •   $6,747 for 7 lines of service that had unallowable combinations of components.

In response to CMS’s March 2012 TDL, Noridian implemented and improved edits to address
the LCD requirements. In addition to implementing and improving its edits, Noridian also
reprocessed prior period claims using the updated edits and identified an additional 657
unallowable lines of service totaling $1,417,638 that it had originally paid. Noridian identified
these unallowable lines of service and recovered the $1,417,638 before the start of our review.

Of the 48 lines of service we identified that did not meet LCD requirements, 5 lines of service
occurred after Noridian implemented its improved edits. Noridian did not identify the other 43
lines of service during its reprocessing of previous claims.

WHAT WE RECOMMEND

We recommend that Noridian:

    •   recover $96,509 in identified overpayments for lines of service for lower limb prostheses
        that did not meet LCD requirements and

    •   continue to monitor the edits it developed and updated in response to CMS’s March 2012
        TDL to ensure that the edits are functioning correctly.

AUDITEE COMMENTS

In written comments on our draft report, Noridian stated that it had recouped all but $5,544 of
the overpayments that we had identified and that it was in the process of recouping the balance.
Noridian also described corrective actions that it had taken with respect to the monitoring of its
claim-processing edits and educational and outreach activities that it had undertaken to address
the proper billing of lower limb prostheses.




Noridian Healthcare Solutions Paid Unallowable Lower Limb Prosthetics Claims (A-07-12-05035)         ii
                                                     TABLE OF CONTENTS


INTRODUCTION ..................................................................................................................... 1

           Why We Did This Review ............................................................................................. 1

           Objective ........................................................................................................................ 1

           Background .................................................................................................................... 1
                 Medicare Coverage of Lower Limb Prostheses ................................................. 1
                 Durable Medical Equipment Medicare Administrative Contractors ................. 2
                 Local Coverage Determinations and Claim-Processing Edits ........................... 2

           How We Conducted This Review.................................................................................. 3

FINDINGS ................................................................................................................................. 3

           Missing or Incorrect Functional Level Modifiers .......................................................... 4

           Unallowable Combinations of Components .................................................................. 4

RECOMMENDATIONS ........................................................................................................... 4

AUDITEE COMMENTS........................................................................................................... 4

APPENDIXES

           A: Related Office of Inspector General Reports ........................................................... 6

           B: Audit Scope and Methodology................................................................................. 7

           C: Auditee Comments ................................................................................................... 8




Noridian Healthcare Solutions Paid Unallowable Lower Limb Prosthetics Claims (A-07-12-05035)                                                      iii
                                          INTRODUCTION

WHY WE DID THIS REVIEW

Previous Office of Inspector General (OIG) reviews (see Appendix A) found that Durable
Medical Equipment (DME) Medicare Administrative Contractors (MACs) did not ensure that
lower limb prosthetic claims met the coverage requirements in local coverage determinations
(LCDs). LCDs are decisions by DME MACs on whether to cover a particular service in
accordance with section 1862(a)(1)(A) of the Social Security Act (the Act) and are published to
provide guidance to the public and the medical community. In response to one of OIG’s
reviews, on March 5, 2012, the Centers for Medicare & Medicaid Services (CMS) issued a
Technical Direction Letter (TDL) directing the DME MACs to develop claim-processing edits
for all requirements in LCDs for lower limb prostheses. Noridian Healthcare Solutions, LLC
(Noridian), is one of the DME MACs. This review is part of a series of reviews to determine the
compliance of DME MACs with LCD requirements for lower limb prostheses.

OBJECTIVE

Our objective was to determine whether Noridian processed and paid claims for lower limb
prostheses according to LCD requirements for the period January 1, 2010, through
December 31, 2011.

BACKGROUND

Medicare Coverage of Lower Limb Prostheses

Under Title XVIII of the Act, the Medicare program provides health insurance for people aged
65 and over, people with disabilities, and people with permanent kidney disease. CMS
administers the Medicare program. Section 1862(a)(1)(A) of the Act requires that, to be paid by
Medicare, a service or an item must be reasonable and necessary for the diagnosis or treatment of
illness or injury or improve the functioning of a malformed body member.

According to the Act, Medicare Part B provides for the coverage of durable medical equipment,
prosthetics, orthotics, and supplies (DMEPOS). A lower limb prosthesis is an artificial
replacement for any or all parts of a leg; it provides an individual who has an amputated limb
with the ability to perform functional tasks, particularly walking, that may not be possible
without the device. A prosthesis joins the beneficiary’s residual limb at one of several sites, such
as the hip, knee, ankle, or foot.

For a lower limb prosthesis to be covered by Medicare, the patient is expected to reach or
maintain a defined functional level and be motivated to ambulate. Functional levels range from
level 0 to level 4 and are indicated on prosthetic claims by modifiers K0 to K4. A K0 functional
level modifier identifies a beneficiary who does not have the ability or potential to ambulate or
transfer safely with or without assistance, and a prosthesis does not enhance his or her quality of
life or mobility. In contrast, a K4 functional level modifier is for a beneficiary who has the




Noridian Healthcare Solutions Paid Unallowable Lower Limb Prosthetics Claims (A-07-12-05035)       1
ability or potential for prosthetic ambulation that exceeds basic ambulation skills; this level is
typical of the prosthetic demands of the child, active adult, or athlete.

Durable Medical Equipment Medicare Administrative Contractors

The Medicare Prescription Drug, Improvement, and Modernization Act of 2003 required, among
other things, the use of MACs to process Medicare claims. CMS contracted with four DME
MACs to process and pay DMEPOS claims. Each DME MAC processes claims for one of four
jurisdictions, known as Jurisdictions A, B, C, and D. Noridian is the DME MAC for Jurisdiction
D; it processes DMEPOS claims in 20 States and territories. 1

When submitting claims to DME MACs, suppliers use Healthcare Common Procedure Coding
System (HCPCS) codes. 2 Each claim can have multiple lines of service, each of which
represents a different component (e.g., foot, ankle) of the lower limb prosthesis provided by the
supplier. Lines of service are billed using HCPCS codes, many of which require a modifier
code 3 to indicate such things as left or right limb and functional level.

Local Coverage Determinations and Claim-Processing Edits

According to chapter 13, section 13.1.3, of the Medicare Program Integrity Manual,
Pub. No. 100-08, LCDs are decisions by DME MACs on whether to cover a particular service in
accordance with section 1862(a)(1)(A) of the Act. Section 13.1.3 also states: “The LCDs
specify under what clinical circumstances a service is considered to be reasonable and necessary.
They are administrative and educational tools to assist providers in submitting correct claims for
payment. Contractors publish LCDs to provide guidance to the public and medical community
within their jurisdictions.”

On January 1 of each year of our audit period, Noridian published LCD L11453 for lower limb
prostheses. The LCD contained coverage requirements, such as the required functional levels for
certain components, restrictions on the quantities of socket inserts, 4 unallowable combinations of
HCPCS codes, and the DMEPOS suppliers’ documentation requirements.

Additionally, chapter 13, section 13.10, of the Medicare Program Integrity Manual states that
DME MACs should apply the coverage requirements documented in LCDs to claims on either a
1
 Jurisdiction D States and territories are Alaska, American Samoa, Arizona, California, Guam, Hawaii, Idaho, Iowa,
Kansas, Missouri, Montana, Nebraska, Nevada, North Dakota, Northern Mariana Islands, Oregon, South Dakota,
Utah, Washington, and Wyoming.
2
  HCPCS is a medical code set used throughout the health care industry as a standardized system for describing and
identifying health care procedures, equipment, and supplies in health care transactions.
3
 A modifier is a two-position code reported with a HCPCS code and is designed to give Medicare and commercial
payers additional information needed to process a claim.
4
 A socket insert is used in the socket of the prosthesis to protect the beneficiary’s limb and to allow for
modifications to the fit of the prosthesis due to fluctuation in the size of the limb.




Noridian Healthcare Solutions Paid Unallowable Lower Limb Prosthetics Claims (A-07-12-05035)                         2
prepayment or postpayment basis. Noridian uses claim-processing edits to apply the LCD
requirements for lower limb prostheses on a prepayment basis. Prepayment edits are
programming logic within a claim-processing system that is designed to evaluate claims and
prevent payment for such errors as noncovered, incorrectly coded, or inappropriately billed lines
of service.

CMS issued its March 5, 2012, TDL to all DME MACs in response to OIG’s report issued in
August 2011 (see Appendix A). CMS’s TDL directed DME MACs to work collaboratively to
develop a uniform set of edits based on all of the LCD requirements and to implement these edits
in the local claim-processing system at each DME MAC no later than July 1, 2012.

HOW WE CONDUCTED THIS REVIEW

Noridian paid approximately $207.9 million for 314,986 lines of service (70,145 claims) for
lower limb prostheses from January 1, 2010, through December 31, 2011. We developed
programming logic to analyze these lines of service to determine whether they met LCD
requirements. Our analyses focused on the requirements that could be tested through data
analytics without the need to obtain additional documentation from suppliers. We did not
conduct a medical review to determine whether the services were medically necessary.

We assessed the reliability of the data from CMS’s National Claims History file by electronically
testing required data elements and by checking the basic reasonableness of the data with
Noridian. We determined that these data are sufficiently reliable for the purposes of this report.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix B contains the details of our audit scope and methodology.

                                               FINDINGS

Noridian paid $96,509 for 48 lines of service for lower limb prostheses from January 1, 2010,
through December 31, 2011, that did not meet LCD requirements, consisting of:

    •   $89,762 for 41 lines of service that had missing or incorrect functional level modifiers
        and

    •   $6,747 for 7 lines of service that had unallowable combinations of components.

Chapter 13, section 13.10, of the Medicare Program Integrity Manual states that DME MACs
should apply the coverage requirements documented in LCDs to claims on either a prepayment
or postpayment basis. In response to CMS’s March 2012 TDL, Noridian implemented and
improved edits to address the LCD requirements. In addition to implementing and improving its



Noridian Healthcare Solutions Paid Unallowable Lower Limb Prosthetics Claims (A-07-12-05035)       3
edits, Noridian also reprocessed prior period claims using the updated edits and identified an
additional 657 unallowable lines of service totaling $1,417,638 that it had originally paid.
Noridian identified these unallowable lines of service and recovered the $1,417,638 before the
start of our review.

Of the 48 lines of service we identified that did not meet LCD requirements, 5 lines of service
occurred after Noridian implemented its improved edits. Noridian did not identify the other 43
lines of service during its reprocessing of previous claims.

MISSING OR INCORRECT FUNCTIONAL LEVEL MODIFIERS

LCD L11453 states that to receive certain lower limb prostheses, individuals should attain a
certain functional level, and the functional level modifier code must be included on the line of
service. For example, HCPCS code L5930 is for a high-activity knee frame. A beneficiary who
receives this knee frame must be able to attain a functional level of 4, and Medicare claims with
a line of service for L5930 must include the K4 modifier code. We identified instances in which
Noridian processed and paid for L5930 lines of service that did not have a modifier code or that
had a modifier code other than K4 (indicating a lower functional level). In total, Noridian paid
$89,762 for 41 lines of service that had a missing or incorrect functional level modifier code. Of
the 41 lines of service, 34 lines had an incorrect functional level modifier (K3-K0), and 7 lines
were missing a functional level modifier.

UNALLOWABLE COMBINATIONS OF COMPONENTS

LCD L11453 identifies certain combinations of components that are not allowed on lower limb
prostheses. For example, HCPCS code L5540 is for a preparatory below-the-knee prosthesis.
When this prosthesis is provided to a beneficiary, certain prosthetic additions, such as HCPCS
code L5704 (custom shaped protective cover, below knee), are not allowable. We identified
instances in which Noridian processed and paid for both L5540 and L5704 lines of service. In
total, Noridian paid $6,747 for seven lines of service that had unallowable combinations of
components.

                                       RECOMMENDATIONS

We recommend that Noridian:

    •   recover $96,509 in identified overpayments for lines of service for lower limb prostheses
        that did not meet LCD requirements and

    •   continue to monitor the edits it developed and updated in response to CMS’s March 2012
        TDL to ensure that the edits are functioning correctly.

AUDITEE COMMENTS

In written comments on our draft report, Noridian stated that it had recouped all but $5,544 of
the overpayments that we had identified and that it was in the process of recouping the balance.



Noridian Healthcare Solutions Paid Unallowable Lower Limb Prosthetics Claims (A-07-12-05035)       4
Noridian also described corrective actions that it had taken with respect to the monitoring of its
claim-processing edits and educational and outreach activities that it had undertaken to address
the proper billing of lower limb prosthetics.

Noridian’s comments are included in their entirety as Appendix C.




Noridian Healthcare Solutions Paid Unallowable Lower Limb Prosthetics Claims (A-07-12-05035)         5
        APPENDIX A: RELATED OFFICE OF INSPECTOR GENERAL REPORTS


                                                                        Report Number           Date
                        Report Title                                                           Issued
Questionable Billing by Suppliers of Lower Limb Prostheses             OEI-02-10-00170         8/2011

Lower Limb Prosthetics Claims Paid to Premier Prosthetics               A-07-12-05026          12/2012
and Orthotics Were Not Always Supported by Adequate
Documentation

Lower Limb Prosthetics Claims Paid to Ozark Prosthetics                 A-07-12-05029          4/2013
and Orthotics Were Not Always Supported by Adequate
Documentation




Noridian Healthcare Solutions Paid Unallowable Lower Limb Prosthetics Claims (A-07-12-05035)             6
                    APPENDIX B: AUDIT SCOPE AND METHODOLOGY 


SCOPE

Noridian paid $207,910,079 for 314,986 lines of service (70, 145 claims) for lower limb
prostheses for the period January 1, 2010, through December 31, 2011. Our review focused on
whether Noridian met Medicare requirements by paying only those lines of service for lower
limb prosthetics that were in accordance with its LCD on lower limb prostheses. We did not
conduct a medical review to determine whether the services were medically necessary. We
limited our review of internal controls to those related to our audit objective.

We conducted our audit work, which included contacting Noridian in Fargo, North Dakota, from
September 2012 through January 2013.

METHODOLOGY

To accomplish our objective, we:

    • 	 reviewed applicable Federal Jaws, regulations, and DME MAC guidance;

    • 	 interviewed staff at Noridian to gain an understanding of its procedures for the processing
        and payment ofDMEPOS claims for lower limb prostheses;

    • 	 used CMS's National Claims History file to identify all DMEPOS claims processed and
        paid by Noridian during the period January 1, 2010, through December 31 , 2011;

    • 	 developed programming logic to analyze the lines of service, focusing on the LCD
        requirements that could be tested through data analytics without the need to obtain
        additional documentation from suppliers; and

    • 	 discussed the results of our review and provided detailed data on our findings to Noridian
        officials on June 14, 2013.

We assessed the reliability of the data from CMS's National Claims Hi story file by electronically
testing required data elements and by checking the basic reasonableness ofthe data with
Noridian. We determined that these data are sufficiently reliable for the purposes of this report.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Noridian Healthcare Solutions Paid Unallowable Lower Limb Prosthetics Claims (A -07- 12-05035)    7
                                            APPENDIX C: AUDITEE COMMENTS




         no;;d1an   Healthcare Solutions
                                                                                                       900 42nd Street South
                                                                                                            Fargo, ND 58103


         August 6, 2013



         Patrick Cogley
         Regional Inspector General for Audit Services
         Office of Inspector General
         601 East 12'h Street, Room 0429
         Kansas City MO 64106

         Dear Mr. Cogley,

         Noridian Healthcare Solutions, LLC has reviewed the draft report, A-07 -1 2-05035, entitled Durable
         Medical Equipment Claims paid by Noridian Healthcare Solutions, LLC Did Not Always Meet the
         Requirements of the Local Coverage Determination fo r Lower Limb Prostheses. Below are our comments
         and responses to the OIG's recommendations.

         The first OIG recommendation was that Noridian recover $96,509 in identified overpayments for lines of
         service that did not meet LCD requirements from January I, 20 I 0 to December 31, 20 ll. Noridian has
         reviewed the OIG provided spreadsheet of the lines that did not meet LCD requirements and finds that only
         five paid lines totaling $5,544 remain to be recouped as an overpayment. The other lines were recouped
         earlier in 2013, as we were made aware of errors that the OIG found during the process of preparing this
         report. An overpayment request was submitted on July 30, 2013 to our financial team for recouping the
         overpayment on these five lines.

         We are pleased that the OIG recognized Noridian 's efforts in reprocessing prior claims paid in error, once
         edits were added to our claims processing system to edit for appropriate functional levels, quantities of
         items provided and unallowable combinations of codes. As mentioned in the report, Noridian identified 657
         unallowable lines of service and recovered over $1.4 million before the start of the OIG review.

         The second OIG recommendation was that Noridian continue to monitor the edits developed and updated in
         response to the March 2012 TDL to ensure that the edits are functioning correctly. Noridian added various
         lower limb edits to the VMS claims processing system in early June 2010 (six months into the OIG review
         period), based on Recovery Auditor identified vulnerabilities. Revisions to these edits were made in
         December, 2010. We also added system edits fo r a gap found when reviewing the lower limb policy
         requirements directed by TDL 12248 in mid-2012. Noridian's lower limb edits have been in place for some
         time--in some instances, years--and are effective, as evidenced by the low dollar amount found with errors
         by the OIG compared to the billed amount of $207.9 million. In addition, most errors found by the OIG
         were from early 2010, before the first series of edits were implemented.

         Below is a list of additional activities Noridian has taken to address proper billing of lower limb prosthetics.
         Based on CERT errors and the high cost for lower limb prosthetics, we continue to focus education efforts
         and complex medical reviews on this DME category.




         A CMS Medicare Administrative Contractor
         Notidlan Heahhcam SOfutions. llC                                                                    293'12033 (3203) 4· 13




Noridian Healthcare Solutions Paid Unallowable Lower Limb Prosthetics Claims (A-07-12-05035)                                          8
             •   In August 2012, Noridian implemented widespread complex medical reviews for HCPCS L5673 and
                 L5301. Additional widespread complex reviews for HCPCS L5980, L5981 and L5987 were
                 implemented in January 2013. These reviews remain open at this time.

             •   In September 2012, Noridian Education staff provided educational materials, including lower limb
                 prosthetic education manuals, to attendees at the annual AOPA National Assembly.

             •   On January 19,2013, Noridian's Medical Review and Education teams collaboratively developed
                 and mailed an Orthotics and Prosthetics specialty booklet to 499 Jurisdiction D Orthotic and
                 Prosthetic suppliers. These suppliers were identified as having errors based on widespread edit
                 effectiveness reports. The booklets included Orthotic and Prosthetic presentations, specialty
                 checklists, Dear Physician letters and a number of reference materials.

             •   On Aprill6, 2013 at the "Documentation and Dialogue" in-person seminar hosted by Noridian in
                 Salt Lake City, UT, an orthotics and prosthetics round table session was conducted. These sessions
                 allow attendees to ask any questions on the round table topic.

            •    In May 2013, Noridian Education staff held a web-based workshop on Lower Limb Prostheses with
                 109 attendees. See
                 https://www.noridianmedicare.com/dme/train/presentations/lower limb prosthesis.pdf for the
                 workshop material.

            •    In May 2013, Noridian Education staff attended and presented at the N01thwest American Academy
                 of Orthotists and Prosthetists (NW AAOP) Continuing Education Conference in Bellevue, W A.
                 Noridian provided various MLN brochures including: The Medicare Review Program, CERT, The
                 Appeal Process, Supplier Standards and Quality Standards. Questions from attendees were answered
                 on the topics of reviews, medical record requirements, and Therapeutic Shoes for Persons with
                 Diabetes, Lower Limb Prostheses and Spinal Orthosis policy questions.

            •    On May 14, 2013 at the "Documentation and Dialogue" in-person seminar hosted by Noridian in St.
                 Louis, MO, an orthotics and prosthetics round table session was conducted.

            •    On June 4 and 6, 2013 at the "Documentation and Dialogue" in-person seminars hosted by Noridian
                 in Des Moines, IA and Omaha, NE, orthotics and prosthetics round table sessions were conducted.

            •    On July 23 and 25, 2013 at the "Documentation and Dialogue" in-person seminars hosted by
                 Noridian in Los Angeles and San Diego, CA, orthotics and prosthetics round table sessions were
                 conducted.




Noridian Healthcare Solutions Paid Unallowable Lower Limb Prosthetics Claims (A-07-12-05035)                          9
         We appreciate the opportunity to comment on this report and the findings. If you have any questions on this
         response and Noridian's actions, please contact me at 701-277-6754.




         Sandra Skallerud,
         DME Vice President and JD Project Manager

         cc:    James RaUs, JD COR, CMS
                Tom McGraw, CEO and President of Noridian Healthcare Solutions, LLC




Noridian Healthcare Solutions Paid Unallowable Lower Limb Prosthetics Claims (A-07-12-05035)                           10
